No. 19-1029

In the Supreme Court of the United States
Bethany Austin, Petitioner,
v.
Illinois, Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition for
Respondent Illinois contains 7084 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

eusEiiuor li

. Jane Elinor
100 West Randolph Street

Chicago; Illinois 60601

(312) 814-5376

jnotz@atg.state.il.us
eserve.criminalappeals@atg.state.il.us
Counsel for Respondent

Illinois

Executed on July 6, 2020.

   
